LEGAL PRINTERS

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

February 12, 2021

Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE NO. 20-947:

5614 Connecticut Avenue, NW #307
Washington, DC 20015

IDAHO STATE TAX COMMISSION V. NOELL INDUSTRIES, INC.

Dear Sir or Madam:
I hereby certify that at the request of counsel for Amicus Curiae Multistate Tax
Commission on February 12, 2021, I caused service to be made pursuant to Rule 29 and
the Temporary Order of April 15, 2020 on the following counsel for the Petitioner and
Respondent:
PETITIONER:
Nathan Henrie Nielson
Idaho Office of the Attorney General
PO Box 36
Boise, ID 83722-0410
208-505-4954
nathan.nielson@tax.idaho.gov

RESPONDENT:
Richard Glenn Smith
Hawley Troxell Ennis & Hawley LLP
PO Box 1617
Boise, ID 83701
208-344-6000
rsmith@hawleytroxell.com

This service was effected by depositing one copy of the Brief of Amicus Curiae
Multistate Tax Commission in an official “first class mail” receptacle of the United
States Post Office as well as by transmitting a digital copy via electronic mail.
Sincerely,
Jack Suber, Esq.
Principal

Sworn and subscribed before me this 12th day of February 2021.

